                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




        OFFICE OF INSPECTOR GENERAL
        AGREED-UPON PROCEDURES FOR
   CORPORATION FOR NATIONAL AND COMMUNITY
                   SERVICE
             GRANTS AWARDED TO
    AMERICAN RED CROSS METRO NEW JERSEY

                OIG Report Number 08-07




                         Prepared by:

              Office of Inspector General
              1201 New York Avenue NW
                Washington, DC 20525



This report was issued to Corporation management on November 21, 2007. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than May
19, 2008, and complete its corrective actions by November 20, 2008. Consequently, the
reported findings do not necessarily represent the final resolution of the issues presented.
                          OFFICE OF INSPECTOR GENERAL

                                        November 21, 2007



TO:           Rocco Gaudio
              Director, Field Financial Management Center

              Malcolm Coles
              Area Manager

FROM:         Carol Bates (signature on file)
              Assistant Inspector General for Audit

SUBJECT:      Office of Inspector General Report 08-07, Agreed-Upon Procedures of
              Corporation for National and Community Service Grants Awarded to the
              American Red Cross of Metropolitan New Jersey

Attached is the final report on our application of agreed-upon procedures to the Senior Corps
grants awarded by the Corporation to the American Red Cross of Metropolitan New Jersey.

Under the Corporation’s audit resolution policy, a final management decision on the findings in
this report is due by May 19, 2008. Notice of final action is due by November 20, 2008.

If you have any questions pertaining to the report, please contact Rick Samson, Audit Manager,
at 202-606-9380.

Enclosure

cc:    Nancy Asaro, Sr. Director, American Red Cross
       Elizabeth Seale, Chief Operating Officer
       Nicola Goren, Chief of Staff
       Tess Scannell, Director, Senior Corps
       William Anderson, Deputy Chief Financial Officer
       Sherry Blue, Audit Resolution Coordinator
       Gloria Sokolowski, Director New Jersey State Office
       Larry Floyd, Senior Grants Manager Specialist




                      1201 New York Avenue, NW Suite 830, Washington, DC 20525
                         202-606-9390 Hotline: 800-452-8210 www.cncsig.gov

                         Senior Corps    AmeriCorps   Learn and Serve America
                                                             CONTENTS

Section                                                                                                                           Page

Executive Summary ........................................................................................................... 1

Background ........................................................................................................................   1

Agreed-Upon Procedures Scope ........................................................................................ 1

Summary of Results ........................................................................................................... 2

Results of Agreed-Upon Procedures .................................................................................. 3




Appendices

A: Red Cross Metro NJ Response to Agreed-Upon Procedures Report
B: Corporation’s Response to Agreed-Upon Procedures Report
                                   EXECUTIVE SUMMARY


The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), performed an agreed-upon procedures (AUP) review of Senior Corps grants
awarded to the American Red Cross Metropolitan New Jersey Chapter (Metro NJ). We
performed this review at the request of the Corporation’s New Jersey State Office. The
purpose of the review was to determine whether labor, occupancy and other volunteer
support costs claimed by Metro NJ for the Retired and Senior Volunteer Program (RSVP)
were allowable, allocable, and in compliance with applicable laws, regulations, and terms
and conditions of the grants.

We found that Metro NJ’s methods for charging some employee salary costs and occupancy
cost were not in compliance with Federal regulations. Administrative and accounting labor
costs were charged based on the grant budgets. Occupancy cost was charged based on rental
rates. The office space is owned by Metro NJ therefore rent charged to its Corporation grants
must not exceed Metro NJ’s cost of ownership.

BACKGROUND

The Corporation awards grants and cooperative agreements to assist in the creation of full-
time and part-time national and local community service programs. The Senior Corps
program is one of the Corporation’s three major service initiatives. The purpose of the RSVP
program is to provide grants to qualified organizations to engage persons, age 55 and older,
in providing assistance to help meet the needs of local communities. Metro NJ’s RSVP
volunteers serve Hudson, Essex and Passaic Counties in a variety of programs, such as
tutoring, companion outreach, health education, consumer education, disaster preparedness,
and food collection and distribution.

AGREED-UPON PROCEDURES SCOPE

We performed the agreed-upon procedures for the grants and award periods shown below:

       Program                            Award No.            Award Period
       RSVP Hudson & Essex                03SRANJ004           7/1/2003-6/30/2006
       RSVP Passaic                       03SRANJ005           7/1/2003-6/30/2006

We conducted our on-site field work on January 31, 2007, and February 1, 2007. We
obtained additional information for our work through August 6, 2007. The agreed-upon
procedures included:

   •   Reconciling, on a test bases, grant costs claimed to the accounting records.
   •   Comparing actual costs to budgeted costs for compliance with grant terms.
   •   Testing costs claimed for allowability, allocability and reasonableness.




                                               1
                                  SUMMARY OF RESULTS


            Grant                    Approved      Claimed      Questioned
           Number        Program      Budget        Cost          Cost     Notes

        03SRANJ004       RSVP          $912,773     $909,238      $7,079        1

        03SRANJ005       RSVP           508,421      495,020       2,493        2

        Totals                       $1,421,194 $1,404,258        $9,572

Notes

1.   Questioned costs include personnel costs of $2,406 and occupancy costs of $4,673.

2.   Questioned costs include personnel costs of $5,422 and occupancy cost recommended
     upward adjustments of ($2,929).


We performed the procedures, which were agreed to by the OIG and the Corporation, solely
to assist Corporation management in reviewing some categories of claimed costs and
volunteer files for the grantee’s RSVP program. This agreed-upon procedures review was
performed in accordance with generally accepted government auditing standards.

EXIT CONFERENCE

We provided a discussion draft of this report and conducted an exit conference with Metro
NJ and Corporation representatives on October 9, 2007. Their responses to the draft report
are included in the final report as Appendices A and B, respectively. Based on the response
to the draft report and additional documentation provided with it, our results of agree-upon
procedures changed. These revised results are included in this report. In addition, we
included our summary of Metro NJ’s comments in this report.




                                             2
RESULTS OF AGREED-UPON PROCEDURES

1.     Personnel labor support costs for administration and accounting were based on
       budgeted amounts instead of actual costs.

                                                  Questioned
                         Award No.             Personnel Expense
                         03SRANJ004                 $2,406
                         03SRANJ005                  5,422
                         Total                      $7,828

Metro NJ’s administrative personnel did not complete activity based time sheets.
Accounting personnel did complete activity based timesheets but they were not used to
record the labor costs on the RSVP grants. By using the grant budget to charge the cost, the
actual cost of Metro NJ’s grant administration and accounting cannot be determined. The
lack of an actual cost determination increases the possibility that future budgets for the same
programs will not be accurate.

OMB Circular A-122 Cost Principles for Non-Profit Organizations, Appendix B, Selected
Items of Cost, paragraph 8.m. Compensation for Personal Services, Support of salaries and
wages, states:

       (1) Charges to awards for salaries and wages, whether treated as direct costs
       or indirect costs, will be based on documented payrolls approved by a
       responsible official(s) of the organization. The distribution of salaries and
       wages to awards must be supported by personnel activity reports, as
       prescribed in subparagraph (2), except when a substitute system has been
       approved in writing by the cognizant agency.

       (2) Reports reflecting the distribution of activity of each employee must be
       maintained for all staff members (professionals and nonprofessionals)
       whose compensation is charged, in whole or in part, directly to awards. In
       addition, in order to support the allocation of indirect costs, such reports
       must also be maintained for other employees whose work involves two or
       more functions or activities if a distribution of their compensation between
       such functions or activities is needed in the determination of the
       organization's indirect cost rate(s) (e.g., an employee engaged part-time in
       indirect cost activities and part-time in a direct function). Reports
       maintained by non-profit organizations to satisfy these requirements must
       meet the following standards:

               (a) The reports must reflect an after-the-fact determination of the
               actual activity of each employee. Budget estimates (i.e., estimates
               determined before the services are performed) do not qualify as
               support for charges to awards.


                                               3
Recommendations

We recommend that the Corporation:

   •    Require the grantee to complete time and activity reports to record labor costs in
        accordance with OMB Circular A-122, Cost Principles for Non-Profit Organizations,
        Appendix B, paragraph 8.m.
   •    Disallow and recover the questioned costs.

Auditee’s Response

A time study for the RSVP program functions will be completed to substantiate charges for
the accounting and administrative effort. Metro NJ also requested that the questioned cost be
adjusted for the RSVP activity that accounting personnel recorded on their time sheets.

Auditor’s Comment

We considered Metro NJ’s request and reviewed documentation provided with its response.
The questioned cost from the draft report was adjusted for the RSVP effort accounting
personnel recorded on the time sheets. The questioned Federal share of $3,142 for the
budget entry on Grant No. 03SRANJ005 was reduced by $1,888. The claimed costs for
Grant No. 03SRAN004 increased ($1,529) because of the recorded time sheet hours. The
remaining questioned costs that we recommend be disallowed and recovered is $7,828.


   2.      Rental costs were charged to the grants instead of ownership costs.

                                              Questioned
                       Award No.              Occupancy Expense
                       03SRANJ004             $4,673
                       03SRANJ005             (2,929)
                       Total                  $1,744

Metro NJ moved from rented office space to owner-occupied space in October 2003. The
project period for both grants was July 1, 2003, through June 30, 2006. Rental costs were
charged for the life of the grants. The budgeted grant costs were charged to Federal share
and the remaining costs to match. The questioned cost represents the Federal share. We are
not questioning the match portion because the grantee has enough excess match to make up
the unallowable match. The upward adjustment on the Passaic grant, No. 03SRANJ005, is
due to the fact that the budgeted Federal share was less than the cost. The cost is questioned
based on OMB Circular A-122, Cost Principles for Non-Profit Organizations, Appendix B,
Selected Items of Cost paragraph 43. Rental Costs of building and equipment. Rental costs
cannot exceed ownership costs when the grantee owns the property. The questioned cost is
the Federal portion of the excess of the rental rate above the ownership rate.


                                              4
Recommendations

We recommend that the Corporation:

   •   Require that actual occupancy costs are charged to the grants.
   •   Disallow and recover the questioned costs and revise the grantee’s Financial Status
       Report to reflect the upward adjustment.

Auditee’s Response

In its response to the draft report, Metro NJ provided additional costs and supporting
documentation ($1,594 for award no. 03SRANJ004 and $1,429 for award no. 03SRANJ005)
associated with the relocation from rental space to owner occupied space.

Auditor’s Comment

The additional costs and supporting documentation were reviewed using criteria in OMB
circular A-122 Cost Principals for Non-profit organizations. The costs consisted of the
moving costs, a Fairfield Township development fee and interest costs for a building loan.
We reviewed the supporting documentation and determined the costs are allowable. We
adjusted the questioned cost from the draft report accordingly.



We were not engaged to, and did not perform an examination, the objective of which would
have expressed of an opinion on the subject matter. Accordingly, we do not express such an
opinion. Had we performed additional procedures, other matters might have come to our
attention that would have been reported to you.




                                            5
This report is intended solely for the use of the management of the Corporation and Metro
NJ, and should not be used by those who have not agreed to the procedures or have not taken
responsibility for the sufficiency of the procedures for their purposes. However, the report is
a matter of public record and its distribution is not limited.




__(signature on file)_________________________
Carol Bates, Assistant Inspector General for Audit
Office of Inspector General
Corporation for National and Community Service




                                               6
                 APPENDIX A

AMERICAN RED CROSS OF METROPOLITAN NEW JERSEY
 RESPONSE TO AGREED-UPON PROCEDURES REPORT
            American                                                           209 Fairfield Road
                                                                               Fairfield, N e w Jersey 07004
            Red Cross                                                          Tel: 973-797-3300 / 800-507-6058
                                                                               Fax: 973-575-8462
            of Northern New Jersey                                             www.redcrossnnj.org




  November 6,2007

  Fax: 202-606-9397
  Sent via Federal Express
  Rick Samson                                                                                             I

                                                                                                                I
                                                                           I
  Audit Manager                                                                       OFFICE OF THE
  Corporation for National Community Service                                      I W E C T O R GENERAL

  1201 New York Avenue, NW
  Suite 830
  Washington, DC 20525


  Dear Mr. Samson:

  Below is my response to your letter dated October 10,2007.


                                   American Red Cross Metropolitan NJ
                                Response to Agreed Upon Procedures Report
                                RSVP Grants 03SRANJ004 AND SRANJOO5
                                 PERFORMANCE PERIOD 7/ 1I03-6130106

       1. Personnel labor support costs for administrative and accounting were based on budgeted
          amounts instead of actual costs.

           While management administration did not consistently submit timesheets prior to 2005,
           subsequent to CNS visit in September 2005 timesheets were regularly submitted. However,
           administrative time was spent in monthly closings, audit preparation and budgeting for RSVP
           programs with regular review of any variances and reporting that was required. Budgets for the
           grants and the agency were developed based on individual staff estimating the amount of time
           of particular function. Those estimates have been carried forward over many years.
           Management administration relied on historical estimated time studies provided by staff. We
           will complete a time study of RSVP program functions to substantiate any charges for
           accounting and administrative charges. The auditor did receive time sheets from accounting
           personnel and found that the difference was less than $1000, please adjust the amount of
           questioned costs to reflect his findings.



Ridgewood Service Center   Junior League of Bergen County   Jersey City Service Center             Bayonne Service Center
74 Godwin Avenue           Service Center                   53 Wli Road                            Route 440 South
Ridgewood, NJ 07450        345 Union Street                 Jersey City, NJ 07302                  Military Ocean Terminal
Tel: 201 -652.3210         Hackensack, NJ 07601             Tel: 201-433-3100                      Building 51
I&: 201-492-9408           Tel: 201-487-7470                Fax: 201-433-9705                      Bayonne, NJ 07002
                           Pax: 201-487-6773                                                       Tel: 201-339-3490
                                                                                                   Pax: 201-339-3490
    I           American                                                        209 Fairfield Road
                                                                                Fairfield, New Jersey 07004
                Red Cross                                                       Tel: 973-797-3300 / 800-507-6058
                                                                                Fax: 973-575-8462
                of Northern New Jersey                                          www.redcrossnnj.org


          2. Rental costs were charged to the grants instead of ownership costs.

              American Red Cross Metropolitan NJ requests the auditor to include one time costs related to
              our move from rental space to owner occupied space during the period of September -
              November 2003. The additional costs were moving expenses $$36,986, Mt Laurel tadfee
              $52,460, and loan interest $41,561 related to an unsecured loan related to the construction
              costs. All documentation and invoices are included with this response. Adding this one time
              cost of $13 1,007 calculates to a net of questioned costs $1,197.
                                                                                                                    '
     I hope this helps clarify your questions. I look forward to hearing from you soon regarding any
     revised figures for the report. Please do not hesitate contacting me at 973-797-3333 or
     asaron@,redcrossnn_i.orp.




"
      Sr. Director, Response & Preparedness
      American Red Cross of Northern NJ




    Ridgewood Service Center   Junior League of Bergen County   Jersey City Service Center     Bayonne Service Center
    74 Godwin Avenue           Service Center                   53 Wli Road                    Route 440 South
    Ridgewood, NJ 07450        345 Union Street                 Jersey City, NJ 07302          Militav Ocean Terminal
    Tel: 201-652-321 0         Hackensack, NJ 07601             Tel: 201-433-3100              Building 51
    I k : 201-492-9408         Tel: 201-487-7470                Fax: 201-433-9705              Bayonne, NJ 07002
                               Pax: 201 -487-6773                                              Tel: 201-339-3490
                                                                                               Fax: 201-339-3490
                           APPENDIX B

CORPORATION’S RESPONSE TO METRO NJ AGREED-UPON PROCEDURES REPORT
                                   y$-ndkAL &               

                                   COMMUNITY
                                   SERVICE=



To:                                       ector General for Audit

From:                                         Financial Management Center

CC:            William Anderson, Deputy CFO for Finance
               Andrew Klein, Deputy CFO for Planning and Program Management
               Carol Bates, Assistant Inspector General for Audit
               Sherry Blue, Audit Resolution Coordinator, Office of the CFO
               Malcolm Coles, Area Manager
               Anthony DeColli, Senior Grants Management Specialist

Date:          October 12,2007

Subject:       Response to OIG Draf€Audit Report, Agreed-Upon Procedures Review of
               Corporation for National and Community Services Senior Corps Grants
               Awarded to the American Red Cross Metropolitan New Jersey Chapter



Thank you for the opportunity to review the draft audit report of the Corporations grants
awarded to the American Red Cross Metropolitan New Jersey Chapter.

The FFMC does not have specific comments at this time. After your final audit report is
issued, we will review the findings in detail, work with the American Red Cross
Metropolitan New Jersey Chapter to resolve all findings and recommendations,
determine the allowability of questioned costs, and provide you with our management
decision.




                          Corporation for Nauonal and Commututy Semce
                                F~eldFmanclal Management Center                             USA\-
                                             *
               The Curt~sBu~ldmg,Su~te876 E 601 Walnut Street *Ph~ladelphm,PA 19106         Freedom Corps
                                                                                                        ww
                                                                                            ~drs~hllerenc.
                              tel 215-597-9972 *fax 215-597-4933
                       Semor Corps *Amencorps *Learn and Seme Amenca
